      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201



February 25, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Metropolitan Child Services, Inc.’s Head
               Start Program (A-02-09-02016)


The attached final report provides the results of our limited scope review of Metropolitan Child
Services, Inc.’s (Metropolitan’s) capacity to manage and account for Federal funds and operate
its Head Start program in accordance with Federal regulations. This review was requested by the
Administration for Children and Families (ACF), Office of Head Start as part of its overall
assessment of Head Start grantees that have applied for additional funding under the Recovery
Act.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

Metropolitan is a non-profit agency which operates a Head Start program that provides
education, health, and social services to approximately 50 low-income pre-school children and
their families at one location in Brooklyn, New York. Metropolitan is 1 of 10 schools
throughout New York City operated by MetSchools, Inc. (MetSchools), a for-profit corporation
based in New York, New York. Metropolitan shares building space, teaching staff and
administrative staff with another MetSchools institution—the Vernon Avenue Children’s School,
LLC (Vernon), a for-profit entity. Payments for expenditures incurred by Metropolitan and
Vernon are centralized and administered by MetSchools.

The objectives of our limited scope review were to determine whether: (1) Metropolitan used
Head Start funds to pay only allowable Head Start expenditures resulting from obligations
Page 2 – Yvette Sanchez Fuentes


incurred during the grant period, (2) Metropolitan properly allocated its shared costs to all
benefitting programs, (3) Metropolitan accurately reported expenditures to ACF, and
(4) Metropolitan complied with Federal regulations related to program governance.

Head Start funds were improperly transferred to pay non-Head Start daycare and food program
expenditures incurred by Metropolitan as well as non-Head Start expenditures incurred by
Vernon. In addition, Metropolitan charged unallowable expenditures to its Head Start grant, did
not properly allocate shared costs to all benefitting programs, and did not accurately report the
financial status of its Head Start grant to ACF. Lastly, Metropolitan complied with Federal
regulations related to program governance.

In written comments on our draft report, Metropolitan concurred with our findings and described
corrective actions it had taken or planned to take. Metropolitan also clarified its practice of
transferring Head Start funds to pay non-Head Start expenditures. We revised our report to
reflect this clarification.

In determining whether Metropolitan should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing Metropolitan’s capacity to manage and account for Federal funds.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be
posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-02-09-02016 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
 REVIEW AT METROPOLITAN
  CHILD SERVICES, INC.’S
   HEAD START PROGRAM




                       Daniel R. Levinson
                        Inspector General

                         February 2010
                         A-02-09-02016
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program. The Head Start program provides grants to local public and private non-profit and for-
profit agencies to provide comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance services.

Metropolitan Child Services, Inc. (Metropolitan), a non-profit agency, operates a Head Start
program that provides education, health, and social services to approximately 50 low-income
pre-school children and their families at one location in Brooklyn, New York. It also operates
daycare and food programs. Metropolitan is 1 of 10 schools throughout New York City operated
by MetSchools, Inc. (MetSchools), a for-profit corporation based in New York, New York.

During grant years (GYs) 2008 and 2009 (February 1, 2007, through January 31, 2009), ACF
directly provided Head Start funds to Metropolitan totaling $527,547 and $518,547, respectively.
In addition, Metropolitan’s Head Start program received Recovery Act grant funding for
GY 2010 totaling $28,660 for cost-of-living increases and quality improvement.

Metropolitan shares building space, teaching staff, and administrative staff with another
MetSchools institution—the Vernon Avenue Children’s School, LLC (Vernon), a for-profit
entity. Payments for expenditures incurred by Metropolitan and Vernon are centralized and
administered by MetSchools.

OBJECTIVES

The objectives of our limited scope review were to determine whether: (1) Metropolitan used
Head Start funds to pay only allowable Head Start expenditures resulting from obligations
incurred during the grant period, (2) Metropolitan properly allocated its shared costs to all
benefitting programs, (3) Metropolitan accurately reported expenditures to ACF, and
(4) Metropolitan complied with Federal regulations related to program governance.




                                                 i
SUMMARY OF FINDINGS

Head Start funds were improperly transferred to pay non-Head Start daycare and food program
expenditures incurred by Metropolitan as well as non-Head Start expenditures incurred by
Vernon. In addition, Metropolitan charged unallowable expenditures to its Head Start grant, did
not properly allocate shared costs to all benefitting programs, and did not accurately report the
financial status of its Head Start grant to ACF. Lastly, Metropolitan complied with Federal
regulations related to program governance.

RECOMMENDATION

In determining whether Metropolitan should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing Metropolitan’s capacity to manage and account for Federal funds.

METROPOLITAN CHILD SERVICES, INC., COMMENTS

In written comments on our draft report, Metropolitan concurred with our findings and described
corrective actions it had taken or planned to take. Metropolitan also clarified its practice of
transferring Head Start funds to pay non-Head Start expenditures. We revised our report to
reflect this clarification. Metropolitan’s comments are included in their entirety as the appendix.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION....................................................................................................................1

     BACKGROUND .................................................................................................................1
       Head Start Program........................................................................................................1
       Metropolitan Child Services, Inc ...................................................................................1
       Requirements for Federal Grantees ...............................................................................2

     OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................2
       Objectives ......................................................................................................................2
       Scope..............................................................................................................................2
       Methodology ..................................................................................................................2

FINDINGS AND RECOMMENDATION.............................................................................3

     RELATED PARTY EXPENDITURES ..............................................................................3

     UNALLOWABLE EXPENDITURES ................................................................................4
       Tuition Reimbursement .................................................................................................4
       Late Fees ........................................................................................................................4

     EXPENDITURES IMPROPERLY ALLOCATED ............................................................4
       Corporate Administrative Costs.....................................................................................4
       Facilities and Administrative Costs ...............................................................................5
       Professional Fees ...........................................................................................................5

     EXPENDITURES IMPROPERLY REPORTED................................................................5

     PROGRAM GOVERNANCE .............................................................................................6

     RECOMMENDATION .......................................................................................................6

     METROPOLITAN CHILD SERVICES, INC., COMMENTS...........................................6

APPENDIX

     METROPOLITAN CHILD SERVICES, INC., COMMENTS




                                                                      iii
                                                 INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program. On a quarterly basis, Head Start grantees are required to submit Financial Status
Reports (FSRs) to ACF.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance services.

Metropolitan Child Services, Inc.

Metropolitan Child Services, Inc. (Metropolitan), a non-profit agency, operates a Head Start
program that provides education, health, and social services to approximately 50 low-income
pre-school children and their families at one location in Brooklyn, New York. It also operates
daycare 1 and food programs. 2 Metropolitan is 1 of 10 schools throughout New York City
operated by MetSchools, Inc. (MetSchools), a for-profit corporation based in New York, New
York. 3

During grant years (GYs) 2008 and 2009 (February 1, 2007, through January 31, 2009) ACF
directly provided Head Start funds to Metropolitan totaling $527,547 and $518,547, respectively.


1
Funding for Metropolitan’s daycare program was provided by ACF under the Child Care and Development Block
Grant and by the New York City Administration for Children’s Services.
2
Funding for Metropolitan’s food program was provided by the U.S. Department of Agriculture under the Child and
Adult Care Food Program.
3
    Metropolitan’s executive director is the sole owner of MetSchools.


                                                            1
In addition, Metropolitan’s Head Start program received Recovery Act grant funding for
GY 2010 totaling $28,660 for cost-of-living increases and quality improvement.

Metropolitan shares building space, teaching staff, and administrative staff with another
MetSchools institution—the Vernon Avenue Childrens School (Vernon), a for-profit entity.
Payments for expenditures incurred by Metropolitan and Vernon are centralized and
administered by MetSchools.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.28, only allowable costs incurred for the benefit of the grant during the
funding period may be charged to the grant award. In addition, pursuant to 45 CFR § 74.21,
grantees must maintain written procedures for allocating shared costs to all benefitting programs.
Grantees are also required to maintain financial systems that provide for accurate and complete
reporting of grant related financial data. Further, pursuant to 45 CFR § 1301.30, grantees are
required to conduct the Head Start program in an effective and efficient manner, free of political
bias or family favoritism.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited scope review were to determine whether: (1) Metropolitan used
Head Start funds to pay only allowable Head Start expenditures resulting from obligations
incurred during the grant period, (2) Metropolitan properly allocated its shared costs to all
benefitting programs, (3) Metropolitan accurately reported expenditures to ACF, and
(4) Metropolitan complied with Federal regulations related to program governance.

Scope

This review was performed based upon a limited scope request from ACF, dated May 5, 2009.
Therefore, we did not perform an overall assessment of Metropolitan’s internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objectives. Our
review period was GYs 2008 and 2009.

We performed our fieldwork at MetSchools’ administrative office in New York, New York,
during June and July 2009.

Methodology

To accomplish our objectives, we:

       reviewed relevant Federal laws, regulations, and guidance;

       reviewed Metropolitan’s fiscal procedures;




                                                2
      reviewed Metropolitan’s cost allocation methodology;

      compared Head Start grant award expenditures recorded on Metropolitan’s general ledger
       to funds drawn down from the Department of Health and Human Services’ electronic
       payment system and to expenditures reported on Metropolitan’s final FSRs;

      reviewed minutes of Metropolitan’s Governing Board meetings; and

      reviewed Metropolitan’s payroll registers and general ledgers to determine if
       Metropolitan Governing Board members were employed by Metropolitan or received
       compensation for serving on the Board.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

Head Start funds were improperly transferred to pay non-Head Start daycare and food program
expenditures incurred by Metropolitan as well as non-Head Start expenditures incurred by
Vernon. In addition, Metropolitan charged unallowable expenditures to its Head Start grant, did
not properly allocate shared costs to all benefitting programs, and did not accurately report the
financial status of its Head Start grant to ACF. Lastly, Metropolitan complied with Federal
regulations related to program governance.

RELATED PARTY EXPENDITURES

Pursuant to ACF Information Memorandum ACYF-IM-HS-01-06, “Financial Management
Issues in Head Start Programs Utilizing Other Sources of Funding,” issued March 8, 2001,
“Head Start grantees may not transfer, even on a temporary basis, funds from Head Start to
compensate for delayed or late payment from other funding sources unrelated to the Head Start
Act and for costs that are not allowable in Head Start.” In addition, pursuant to 45 CFR § 74.28,
only allowable costs incurred for the benefit of the grant during the funding period may be
charged to the grant award.

Contrary to Federal regulations and ACF program guidance, Head Start funds were periodically
transferred to pay non-Head Start daycare and food program expenditures incurred by
Metropolitan as well as non-Head Start expenditures incurred by Vernon. Conversely, non-Head
Start funds were periodically transferred from Metropolitan’s daycare and food programs as well
as from Vernon to pay Head Start expenditures. This occurred because funds were comingled
and expenditures were paid with available funding, regardless of the funding source. Non-Head
Start daycare, food program, and Vernon expenditures paid with Head Start funds were recorded
in Metropolitan’s general ledger as an intercompany receivable whereas Head Start expenditures



                                                3
paid with non-Head Start funds were recorded in Metropolitan’s general ledger as an
intercompany payable.

As of January 31, 2009, Metropolitan’s general ledger showed an intercompany receivable
balance of $332,054. However, Metropolitan was unable to segregate the balance owed to its
Head Start program by source (i.e., Metropolitan’s daycare and food programs and Vernon).

UNALLOWABLE EXPENDITURES

Tuition Reimbursement

Pursuant to 45 CFR § 74.28, grant funds may only be used in the period for which the funds
were awarded. Grantees that have an unobligated balance must request approval from ACF to
carry the associated funds over for use in the following grant year. 4

Metropolitan received GY 2008 funding totaling $9,000 to reimburse staff for college tuition
incurred for coursework taken to meet New York State-mandated certification requirements.
However, contrary to Federal regulations, Metropolitan did not use the monies for
Metropolitan’s intended purpose in GY 2008. Instead, Metropolitan expended the monies over
two subsequent GYs-$3,280 in GY 2009 for general expenditures and $5,720 in GY 2010 for
reimbursement of staff tuition costs.

Late Fees

Pursuant to OMB Circular A-122, Cost Principles for Non-Profit Organizations, App. B, § 16
(2 CFR pt. 230, App. B, § 16), costs for fines and penalties are unallowable. However, during
our audit period, Metropolitan improperly charged the Head Start grant for late fees, totaling
$410, related to nonpayment of prior period copier equipment rental expenditures.

EXPENDITURES IMPROPERLY ALLOCATED

Pursuant to 45 CFR § 74.21(b)(6), grantees must maintain written procedures for allocating
shared costs to all benefitting programs. In addition, OMB Circular A-122, Cost Principles for
Non-Profit Organizations, App. B, § 8.m(2) (2 CFR pt. 230, App. B, § 8.m(2)) requires that
charges to awards for salaries be supported by time and effort reports reflecting the actual
activity for each employee.

Corporate Administrative Costs

During our audit period, Metropolitan improperly allocated costs for some MetSchools
administrative staff salaries and related fringe benefits, totaling approximately $161,175, to the
Head Start program. This occurred because Metropolitan’s cost allocation methodology did not
contain provisions for allocating these costs to Metropolitan’s other benefitting programs (i.e., its
daycare and food programs), Vernon, or other MetSchools sites even though the administrative

4
 Unobligated balances represent grant award funding for which no expenditures have been incurred. If ACF
approves a grantee’s request to carry funds over to the following grant year, it issues an amended grant award.


                                                          4
staff served those programs in a similar capacity. Moreover, contrary to Federal regulations,
Metropolitan did not support these allocated costs with a time and effort report. As a result,
Metropolitan did not ensure that it properly allocated its shared costs to all benefitting programs,

Facilities and Administrative Costs

Metropolitan used an improper methodology to allocate facilities and administrative costs (e.g.,
supplies and miscellaneous office expenses) during GY 2008 to its benefitting Head Start,
daycare, and food programs, and to Vernon. Specifically, Metropolitan allocated these costs by
using a weighted average of children served in the classroom—a method that resulted in a
disproportionately larger share of the costs being allocated to Head Start. 5 Metropolitan officials
stated that they recognized that this methodology should not have been used to calculate facilities
and administrative costs and, for GY 2009, revised its methodology to remove the weighted
average component. We determined that the revised methodology is reasonable. We applied the
revised methodology to calculate Metropolitan’s GY 2008 facilities and administrative costs
related to Head Start and determined that Metropolitan improperly charged $5,016 to the Head
Start program.

Professional Fees

During our audit period, Metropolitan incurred costs for professional accounting and
bookkeeping services totaling approximately $94,927. These costs benefitted Metropolitan’s
Head Start, daycare, and food programs. However, Metropolitan allocated these costs only to the
Head Start program because its cost allocation methodology contained no provisions for
allocating the costs to its benefitting daycare and food programs.

EXPENDITURES IMPROPERLY REPORTED

Pursuant to 45 CFR § 74.21(b)(1), Federal grantees are required to maintain financial systems
that provide for accurate and complete reporting of grant-related financial data. In addition, as a
condition for receiving Head Start funds, grantees such as Metropolitan are required to provide
ACF with a final FSR detailing expenditures paid during the grant period as well as any
unobligated balances remaining at the end of the grant period.

Contrary to Federal requirements, Metropolitan did not report only expenditures incurred and
paid during GY 2008 on its final FSR. As detailed earlier, Metropolitan received GY 2008
funding totaling $9,000 to reimburse staff for tuition related to college coursework taken to meet
New York State-mandated certification requirements. Metropolitan requested drawdowns for
these expenses totaling $9,000 in GY 2008. However, the expenses were not incurred until GY
2009, when Metropolitan’s staff completed the coursework. Therefore, on its GY 2008 final
FSR submitted to ACF, Metropolitan should have reported the unobligated $9,000 balance.

5
 The weighted average cost allocation methodology was developed for Metropolitan’s salaried classroom
professional costs. According to Metropolitan officials, the methodology was weighted more for Head Start
program enrollees than non-Head Start program enrollees because children enrolled in the Head Start program
required more staff time than children enrolled in other programs. However, the methodology is not appropriate for
allocating facilities and administrative costs because these costs are not related to classroom activities.


                                                        5
However, Metropolitan reported the $9,000 as expended. As a result, Metropolitan’s GY 2008
final FSR submitted to ACF did not accurately reflect the true financial status of Metropolitan’s
Head Start grant.

PROGRAM GOVERNANCE

Metropolitan complied with Federal regulations related to program governance. Specifically, no
Governing Board members were employed by Metropolitan and no Board member received
compensation for serving on the Board.

RECOMMENDATION

In determining whether Metropolitan should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing Metropolitan’s capacity to manage and account for Federal funds.

METROPOLITAN CHILD SERVICES, INC., COMMENTS

In written comments on our draft report, Metropolitan concurred with our findings and described
corrective actions it had taken or planned to take. Metropolitan also clarified its practice of
transferring Head Start funds to pay non-Head Start expenditures. We revised our report to
reflect this clarification. Metropolitan’s comments are included in their entirety as the appendix.




                                                 6
APPENDIX 

                                                                                                                Page 1 0f6


APPENDIX : METROPOLITAN CHILD SERVICES, INC., COMMENTS 





                                            411I§ 

                                             METROPO LITAN 

                                           CHILD SERVI CESIN\:. 

                                                 ..,. ....................... 

                                             ~,.,,"'_~''''''''''''k_'.~




 October 23, 2009

 Mr. James P. Edert
 Rcgionallnspector General for Audit services
 Department of Health & Human Services
 Region II
 Jacob Javits Federal Building
 26 FedcriJl Plaza - Room 3900
 New York, NY 10278

 Re; RepOrt Number: A-QZ-Q9-QZ016       Management Responses


 Dear Mr. Eden:

 Per your letter ilnd draft report submission (Report Number: A·02-09-02016) to Metropolitan Child
 services, Inc. (MCS) dated September 25, 2009, please find attached our responses to the
 Recommendations seen in this report. The format of our response will be a complete reproduction 01 your
 Finding and Recommendation, and t hen our management response.

 If you also have any other questions or issues, regarding our respon~, please do not hesitate to contact
 m•.

 Kind regards,




 Kevin McCarthy 

 CFe, MetSchools, Inc. 


 Cc; Mark Henkin 

 Michael Koffler 

 MiHgot Sigmone 

 John Madigan 





 Learning Site: 386 Vernon Avenue, BrooklYll, NY 11206

 Fiscal Office: ~oE, 30'" Street, New York, NY 10016        phone: 21 2.867.2828 fax: 2l2.867.S<i<i4   Page I
                                                                                                                   Page 2 of 6




Rcport Sectioo · SUMMARY OF FINDINGS

MetSchools improperly borrowed Metropolitan's Head Start funds to pay non-Head Starl expenditures
incurred by Metropolitan and Vernon. In addition, Metropolitan charged unallowable expenditures to
its Head Start grant, did not property allocate shared costs 10 all benefitting programs, and did not
accurately report the financial status of its Head Start grant to ACE lastly, Metropolitan compiled with
Federal regulations related to program governance.


Management ReSPOnse - M,m;!gement agrees wi th this summary of findings, but does note that Its
historical basis practice was to co-mingle the funds of the different programs operated specifically at this
site by the Vernon and MCS entities - which It acknowledges must be changed. It is also noted that
Me tSchools Inc. (the pa(ent entity of Vernon) did not borrow funds from MCS - rather, Vernon, the for­
profit entity also operating at the 386 Vernon Avenue location borrowed/shared funds with the 5
different proerams being offered at this site. Management has already taken corrective actlon to
address these different issues - including specifically the need to segregate and maintain the funding foc
the different programs being at operated at this site. A new, updated allocation methodology was
created successfully for use during FY 2009 (see the fY 2009 A-133 single audit report for MCS) as well.
In addition the CfO will work with the Program Director and the site's Accountant to be sure that
accurate reporting of Its Head Start grant to ACf Is ensured in future.




Report Section · FINDIN GS AND RECOMMENDATION

MctSchools improperly borrowed Metropolitan's Head Start funds to pay non-Head Start e~penditures
incurred by Metropolitan and Vernon. In addition, Metropolitan cha rged unallowable expenditures to its
Head Start grant, did I'K)t properly allocate shared costs to all benefitting programs, and did not accul'iltely
report the finandal status of its Head Start grant to ACF . lastly, Metropolitan complied with Federal
regulations related to program governance.


Management Hcspoose - Managemet\l agrees with this summary of findings, but does note that Its
historical basis practice was to co-mingle the fund s of the different programs operated speci fically al this
Site by the Vernon and MCS entities - which it acknowledges must be changed. It Is iJlso !Ioted that
MetSchools Inc. (the parent entity of Vernon) did not borrow funds from MCS - ralher, Vernon, the for­
profil entity also opera ting at the 386 Vernon Avenue location borrowed/shared funds with the 5
different prOB,rams being offered ilt this site. Management has already taken corrective action to
address these different issues - itlCluding specifically the need to segregate and maintain the funding for
the different prO£rams being at operated at this site. A new, updated allocation methodology was
created successfully for use during FY 2009 (see the FY 2009 A-133 single audit report for MCS) as well.
In addition the CFO will work with the Program Director and the site's Accountant to be sure that
accurate reporting of ils Head Start grant to ACF is ensured In future.




Learning Site; 386 Vernon Avenue, Brooklyn, NY11;w6

Fiscal Office: 4aE, 30'hStreet, New York, NY loo16     phone: 21 2.867.2828 fax: 212.867.5444           Page 2
                                                                                                                Page30f6




RELATED PARTY EXPENDITURES

Pursuant to 45 CFR § 74.28, only allowable com Incurred for the benefit of the grant during t he funding
period may be charged to the grant award . Further, ACF Information Memorandum ACYF-IM-HS-Ol-06,
~Finilncial   Management Issues In Head Start Programs Utilizing Other Sources of funding, ~ Issued March 8,
2001, stales, "Head Start 8r.mtees may not transfer, even on iI temporary basi5, funds from Head Start to
compensate for delayed or late payment f rom other funding source'> unrelated to the Head Start Act ilnd fO(
costs that are not allowable In Head Start,·

Contrary to Federal regulations and ACF program guidance, Mel Schools periodically borrowed Mct ropoUtan's
Head Start funds to pay non-Head Start expenditures Incurred by Metropolitan ilnd Vernon. Conversely,
M etSchools periodically borrowed Vernon fund s to pay Head St art and other program e>cpenditures
incurred by Metropolitan. This occurred because MetSchools comingled Metropolitan and Vernon funds
and paid ei th er school's e>cpenses with available funding, regardless of the funding source. Non-Head Start
e>cpeooilures paid wi th Me tropolita n funds were recorded in Metropolitan's general ledger as an
Int ercompany receivable whereas Metropolitan e>cpendltures paid with Vernon funds were recorded in
Metropolitan's general ledger as an intercompany payable.

Management Response           Management agrees that for GY 2008 and GY 2009 tha t it s hist orical
operating practice wa s to w- mingle si t e program fund s to pay the e>cpenses of the different
programs at th e site. It recognizes the need to segregate and maintain these different program
funds in future, and has already tak.en action to address this issue - through the creation of a
separate Metropolitan operating account (see FY 2009 A-133 si ngle audit report for
Metropolitan). Management also notes - per this A-133 report - that the balance owed to
Metropolitan by Vern on has been reduced to under $100k., and th at t his balance is projected to
be completely eliminated during FY 2010. It is also noted again that MetSchools (the paren t
entity of Vernon) did not borrow funds from Metropolitan - rather Vernon, the for-profi t entity
operating at this site borrowed/shared funds with the different Metropolitan programs at t hiS
si t e.


UNAlLOWABLE EXPENDITURES Tuition

Reimbursement


Pursuant to 45 CFR § 74.28. grant funds m .. y only be used in the period for which the funds were
aw arded. Grantees that have an unobligated balance must request apprOVilI from ACF to carry the
associated funds over for use in the following gran t year.·

Metropolitan received GY 2008 funding totaling $9,000 to reimburse staff lor wllege tuition incurred for
coursework taken to meet New York 5tate-mandated certification requirements. However, contrary to
Federal regulations, Metropolitan did not use the monies for Metropolitan's intended purpose In GY
2008. Instead, Metropolitan expended the moni es over t wo subsequent GYs-$3,2SO in GY 2009 for general
e~pend i tures and $5,720 In GY 2010 for reimbursement of staff tuition costs.

Learning Site; 386 Vernon Avenue, Brooklyn, NY 21206

Fiscal Office: ~oE, JO'~ Street, New York. NY1OO16    phone: 211.867.2828 fax: 212.867.5444          Page 3
                                                                                                                  Page4of6




Management Response         M<lnagement agrees with this fillding, and has already taken corrective action.
The CFa, working with site's Accoun tall! and it s Program Director will ensure that obligated funds arc
spent timely.



La te Fees

Pursuant to OMB Circular A-l22, Cost Principles for Non-Profit Organizations, App. e, § 16 (2 CFR pt.
230, App. B, § 16), costs for fines and penal ties are unallowable. However, during our audit period,
Metropolitan improperly charged the Head Start grant for late fees, totaling $410, rela ted to
nonpayment of prior period copier equipmen t rental expenditures.

Management Response - Management agrees with this finding, and the CFO working with the site's
Account ant will ensure that this error does not occur again.




EXPENDITUR ES IMPROPERLY AllOCATED

Pursuant to 45 CFR § 74.21(b)(6), grantees must maintain wrillen procedures for allocating shared costs
to all benefitting programs. In addition, OMB Circular A-122, Cost Principles for Non-Prolit Organizations,
App. B, § 8.m(2} (2 CFR pt. 230, App . B, § 8.m(2)) requires that charges to awards for salaries be
support ed by time and effort report s reflecting the actual activi ty for each employee.


Corporate Administrative Costs

During our audit period, Metropolitan improperly allocated costs for some MetroSchools administrative
staff salaries and related fringe benefits. totaling approximately $161,175, to the Head Start program. This
occurred because Metropolitan's cost allocation methodology did not contain provisions for allocating these
costs to Metropolitan's other benefitting programs (i.e., its daycare i1nd food programs), Vernon, or other
MetSchools sites even though the administrative staff served those programs ill a similar capacity.
Moreover, contral)' to federa l regulations. Metropolitan did not support these allocated costs with a time
and effort report. As a resul t, Metropolitan did not ensure thai it properly allocated its shared costs to all
benefitting programs.




Management Response -        Duril)g this 2 year audit period, 100% of site -specific corporate administrative
staff salaries and related fringe benefits, (totaling appro~lmately $161,175 for the site) were allocated to
both the Vernon (2S%) and Metropolitan (7S%) operations. Costs, with;l) the Metropolitan entity were
then allocated · for example during FY 2009, more than 1/2 of these costs allocated to Metropolitan were
then charged to Head Start - an allocation made in accordance w ith Metropolitan's written allocation

Learnin9 Site; 386 Vernon Avenue, Br(){}klyn, NY 11.:106

Fisr:ol Office; 40£, 3o'h Street, New York, NY 10016   phone; 212.867-2828 fox; 21~.867.SH"            P0ge4
                                                                                                      Page 5 of6




methodology. However these allocated, site·specific salary costs were nol supported by a time and effort
report reflecting the   ~ctuill   activity for each staff member. Consequently, Management agrees that it could
not ensure a proper allocation of si te-speci fic corporate administrative costs across the Metropolitan
entity, and thus the Head Start program. Management recognizes the importance of having spe<:ific time
and effort reports for these administrative posi t ions - and these reports have already been created for FY
2010. This will t hen allow a more accurate allocation of these costs to til e different programs at the site.




Facil it ies and Adm Inistrat ive Co sts

Metropolitan used an improper methodology to allocate facilities and administrative costs (e.g., supplies and
miscellaneous office expenses) during GY 2008 to its benefitting Head Start, daycare, and food
programs, and to Vernon. Specifically, Metropolitan allocated these costs by using a weighted average of
childn:m served in the classroom - a method that resulted in a disproportionately larger share of t he costs
being allocated to Head Start.~ Metropolitan officials stated that they recognized that this met hodology
should not have been used to calculate fac ilities and administrative costs and, for GY 2009, revised its
methodology to remove the weighted average component. We determined that the revised methodology is
reasonable. We applied the revised methodology to calculate Metropolitan's GY 2008 facilities and
administrative costs related to Head Start ..nd determined th ..t Metropolitan improperly charged $5,016
to the Head Start program.




Man<lgement ReSPOnse         Management agrees with thiS finding, and it has already taken the corrective action
noted above.




Professional Fees

During our audit period, Metropolitan incurred costs for professional accounting and bookkeeping
services totaling approximately $94,927. These costs benefitted Metropolitan's Head Start, daycare, and
food programs. However, Metropolitan allocated these costs only to the Head Start progmm because its
cost i1l1ocation methodology contained no provisions for allocating the costs to its benefitting daycarc
and food programs.




ManagglTIent Response         Management agrees with this finding. It is noted that this fi nding has already
been corrected as part of our FY 2009 A-133 audit report .




Learning Site: 386 Vemoll Avenue,       Brooklyn, NY 11206

Fiscal Office: "oE, 30'h Street,   New York, NY 20026     phone: n:l.867.:l828   fax: 222.867.51044   PageS
                                                                                                     Page 6 of 6




EXPENDITUR ES IMPROPERLY RE PORlC D

Pursuant to 45 CFR § 74.21(b)(1), Federal grantees are required to maintain financial systems that provide
for accurate and complete reporling o f grant-related finandal da ti!. In addition, <IS a condition for receiving
Head Start funds, grant~s such as Metropolitan ilre required to provide ACF with a fina l FSR detailing
expenditures paid during t he grant period as well as any unobligated balances remaining at the end o f the
grant period.

Contrary to Federal requirements, Metropolitan did not report only expenditures incurred and paid
during GY 2008 on its final FSR. As detailed earlier, Metropolitan received GY 2008 funding totaling
$9,000 to reimburse staff for tuition related to coilege coursework taken to meet New York Sta t e·mandated
certificat ion requirement$ . Metropolitan requested drawdowns for Ihese e~penses lolalinc $9,000 in GY
2008. However, the expenses were not incurred until GY 2009, w hen Metropolitan's stilff completed the
coursework . Therefore, on its GY 2008 final FSR submitted to ACF, Metropolitan should have reported the
unobligaled $9,000 balilrlce. However, Metropolitan reported t he $9,000 as expended. As a result,
Metropolitan's GY 2008 final FSR submitted to ACF did nol aCC1J rately reflect the true finandal status of
Metropolitan's Head Start grant.




Management Response         Management agrees with this finding, <Jlld has already taken action to ensure
that this type of issue does not occu r ilealn. The CFO w ill work with the Proeram Director and the site's
Accountant \0 ensure t hilt accurate reportlr18 o f its Head St art era nt to ACF occurs, and In particular that
obligated funds !Ire spent timely.




Learning Site .. 386 Vernon Avenue, Brooklyn,   NY 11206

Fiscal O/fKe: .o~, 30'~ Sfreet,   New York, NY 10016   phone: 212.867.2828 fax: 212.867.SH4            Page 6
